No.

n-

IN THE
Supreme Court of the United States
HONG TANG
Petitioner
V.
THE UNIVERSITY OF BALTIMORE, et al.
Respondents
On Petition For Writ of Certiorari
To The United States Court Of Appeals For The
Fourth Circuit
PETITION FOR WRIT OF CERTIORARI
HONG TANG
Pro se Petitioner
1288 Columbus Ave #213
San Francisco, CA 94133
Phone: 916-799-6363
E-mail: mailhongtang@gmail.com

1

QUESTION PRESENTED

1. Whether the lower courts should have liberally
construed the pro se litigant’s claims against the
state officials’ offices (the University of Baltimore) as
claims against all six state officials (current and
former university officials) in their official capacities.
Erickson v. Pardus, 551 U.S. 89, 94, 127 S.Ct. 2197,
167 L.Ed.2d 1081 (2007) (per curiam); Estelle v.
Gamble, 429 U.S. 97, 106, 97 S.Ct. 285, 50 L.Ed.2d
251 (1976); Hughes u. Rowe, 449 U.S. 5, 9 (1980);
Gramegna v. Johnson, 846 F.2d 675, 677-78 (11th
Cir. 1988); Cato v. United States, 70 F.3d 1103,
1105-06 (9th Cir. 1995); Ghana v. Holland, 226 F.3d
175,180 (3d Cir. 2000); Ex parte Young, 209 U.S. 123
(1908).

2. Whether the lower courts should have liberally
construed the pro se litigant’s claims for relief
against the state officials in their official capacities
as prospective declaratory or injunctive relief similar
to an expungement inter alia, which was properly
clarified

in

the

pro

se

litigant’s

“Response

(Memorandum In Opposition) to Defendants' Motion
to Dismiss” filed on November 13, 2018. Erickson u.
Pardus, 551 U.S. 89, 94, 127 S.Ct. 2197, 167 L.Ed.2d
1081 (2007) (per curiam); Estelle v. Gamble, 429 U.S.
97, 106, 97 S.Ct. 285, 50 L.Ed.2d 251 (1976); Hughes
v. Rowe, 449 U.S. 5, 9 (1980); Gramegna v. Johnson,
846 F.2d 675, 677-78 (11th Cir. 1988); Cato v. United
States, 70 F.3d 1103, 1105-06 (9th Cir. 1995); Ghana
v. Holland, 226 F.3d 175,180 (3d Cir. 2000); Ex parte
Young, 209 U.S. 123 (1908).

3. Whether the service should have been deemed
proper and sufficient, pursuant to Fed. R. Civ. P.
4(j)(2)(B) and Fed. R. Civ. P. 5(b)(2)(E), when
respondents’ counsel did not challenge the validity of
the

service of the summons and the original

complaint and in fact had already received a copy of
the first amended complaint through the court's
electronic-filing system.

4. Whether the Ex parte Young exception to Eleventh
Amendment sovereign immunity should also be
applicable to claims against the state officials’ offices
- in this case, the University of Baltimore, for
prospective declaratory or injunctive relief. Will v.
Michigan Dept, of State Police, 491 U.S. 58 (1989)

11

PARTIES TO THE PROCEEDING AND
RELATED CASE

The Pro se Petitioner to the proceeding is Hong Tang.

The

Respondents

to

the

proceeding

are

the

University of Baltimore, Kurt L. Schmoke, Darlene
Brannigan

Smith,

Joseph

S.

Wood,

Kathleen

Anderson, Christy Lee Koontz, and Patria de Lancer
Julnes.

Related Case: Hong Tang v. Kurt L. Schmoke, et al.,
Civil Action No. SAG-19-2965 (United States District
Court for the District of Maryland)

1
PETITION FOR A WRIT OF CERTIORARI

STATEMENT OF THE CASE

This suit was brought by pro se litigant Hong Tang
against the University of Baltimore and six current
and former university officials of the University of
Baltimore, pursuant to 42 U.S.C. § 1983.

The United States Court of Appeals for the Fourth
Circuit affirmed the district court’s dismissal order
but modified the order to show that the dismissal
was solely based on jurisdictional grounds and is
without prejudice on August 7, 2019.

The court of appeals denied petitioner’s petition for
rehearing and rehearing en banc on September 24,

2

2019 and denied petitioner’s motion to stay the
mandate pending a petition for certiorari on October
1, 2019.

ISSUES AND REASONS

This suit was brought by a pro se litigant. The lower
courts are required to liberally construed a pro se
litigant’s filing. Erickson v. Pardus, 551 U.S. 89, 94,
127 S.Ct. 197, 167 L.Ed.2d 1081 (2007) (per curiam);
Estelle v. Gamble, 429 U.S. 97, 106, 97 S.Ct. 285, 50
L.Ed.2d 251 (1976); Hughes v. Rowe, 449 U.S. 5, 9
(1980); Gramegna v. Johnson, 846 F.2d 675, 677-78
(11th Cir. 1988); Cato u. United States, 70 F.3d 1103,
1105-06 (9th Cir. 1995); Ghana v. Holland, 226 F.3d

3
175,180 (3d Cir. 2000); Ex parte Young, 209 U.S. 123
(1908).

Therefore, also in the light of the public policy
strongly favoring the resolution of cases on their
merits, the lower courts should have liberally
construed the pro se litigant’s claims against the
state officials’ offices (the University of Baltimore) as
claims against all six state officials (current and
former university officials) in their official capacities,
and/or liberally construed the pro se litigant’s claims
for relief against the state officials in their official
capacities as prospective declaratory or injunctive
relief similar to an expungement inter alia, which
was properly clarified in the pro se litigant’s
“Response

(Memorandum

In

Opposition)

Defendants' Motion to Dismiss” filed on November

to

4
13, 2018, rather than simply dismissed the whole
suit solely on jurisdictional grounds.

In this case, the summons and the original complaint
were properly served on the University of Baltimore
on September 14, 2018, pursuant to Fed. R. Civ. R
4(j)(2)(B); Md. Rule 2-124(k)(2); Md. Rule 2-121(a)(3).
Respondents did not challenge the validity of the
service of the summons and the original complaint on
the University of Baltimore. Instead, respondents
were challenging the service of the first amended
complaint on the University of Baltimore, in the
footnote of their counsel’s “Notice of Appearance”
paper filed on October 9, 2018. However, the service
of the first amended complaint is governed by Fed. R.
Civ. P. 5 rather than Fed. R. Civ. P. 4.. Rule 5(b)(1)

5
states “If a party is represented by an attorney,
service under this rule must be made on the attorney
unless the court orders service on the party.”.
Additionally, Rule 5(b)(2)(E) authorizes “sending it to
a registered user by filing it with the court's
electronic-filing system or sending it by other
electronic means that the person consented to in
writing...”.

According to the records on file, respondents’ counsel
apparently had already received a copy of the first
amended

complaint

through

the

court's

electronic-filing system.

Therefore, petitioner has met his burden of showing
proper service on the University of Baltimore, as to
both the summons and the first amended complaint,

6
pursuant to Fed. R. Civ. R 4(j)(2)(B) and Fed. R. Civ.
R 5(b)(2)(E) respectively.

Therefore, the service should have been deemed
proper and sufficient, pursuant to Fed. R. Civ. P.
4(j)(2)(B)

and Fed. R. Civ. P. 5(b)(2)(E), when

respondents’ counsel did not challenge the validity of
the

service of the summons and the original

complaint and in fact had already received a copy of
the first amended complaint through the court's
electronic-filing system.

The Supreme Court of the United States held “A suit
against state officials in their official capacities is not
a suit against the officials, but rather is a suit

7
against the officials' offices...". Will v. Michigan Dept.
of State Police, 491 U.S. 58 (1989).

From the plain language of this decision, the Ex
parte

Young exception to Eleventh Amendment

sovereign immunity should also be applicable to
claims against the university officials’ offices - in this
case, the University of Baltimore, for prospective
declaratory or injunctive relief.

In this case, petitioner is seeking prospective relief
similar to an expungement inter alia, involving
university student disciplinary proceeding and its
recordkeeping and record issuance, university’s and
its

internal

college’s

admission/re-admission

degree

matters,

and

program
university

students’ grades/transcripts recordkeeping and

8
issuance.

In

the

light

that

a

university’s

organizational, governance and functional structures
are much more complex and unknown to an outsider
than those of a state attorney general’s office, it not
only causes undue difficulty to and prejudice against
pro se petitioner but also is contrary to the intent
and spirit of the Supreme Court of the United States
decision Ex parte Young, 209 U.S. 123 (1908) to
require petitioner to accurately and conclusively
name/sue all the applicable and correct individual
defendants (current and former university officials)
or choose to name/sue only the president of the
university in the complaint. The court should have
allowed the Ex parte Young exception to Eleventh
Amendment sovereign immunity to be applied to
claims against the University of Baltimore in this
case, by allowing petitioner to name/sue the

9
university as a defendant as well, for prospective
declaratory or injunctive relief. Ex parte Young, 209
U.S. 123 (1908).

Therefore, the Ex parte Young exception to Eleventh
Amendment sovereign immunity should also be
applicable to claims against the state officials’ offices
in this case, the University of Baltimore, for
prospective declaratory or injunctive relief. Will v.
Michigan Dept, of State Police, 491 U.S. 58 (1989)

CONCLUSION

The petition for a writ of certiorari should be
granted.

10
Respectfully submitted,

Dated: March 5, 2020

HONG TANG
Pro se Petitioner
1288 Columbus Ave #213
San Francisco, CA 94133
Phone: 916-799-6363
E-mail: mailhongtang@gmail.com

APPENDIX
1. Court of Appeals Unpublished Opinion
2. Court of Appeals Order Denying Rehearing
3. District Court Order

